No. 20-1603

 

IN THE
Supreme Court of the United States

SUSAN BENNETT,
Petitioner,
Vv.
AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31, AFL-CIO;
AFSCME LOocaL 672; AND MOLINE-COLE VALLEY

ScHOOL District No. 40,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeais
for the Seventh Circuit

BRIEF OF THE FREEDOM FOUNDATION
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1h), I certify that the document contains
5,861 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
